Office of
Inspector
General


             Semiannual
             Report to the
             Congress

             October 1, 2006 -

             March 31, 2007



Railroad
Retirement
Board
                        TABLE OF CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                                 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                                          2


OFFICE OF AUDIT

Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                 4

Report Summaries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                          5

Audits: Management Decisions and Implementation . . . . . . . . . . . . . . . . . . . .                                                                                                                13


OFFICE OF INVESTIGATIONS

Mission . . . . . . . . . . . . . . . . . .    .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   14

Accomplishm ents . . . . . . . . . .           .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   16

Investigative C aseload Da ta .                .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   17

Representative Investigations                  .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   19

Ho tline Ca lls . . . . . . . . . . . . . .    .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   28


LEGISLATIVE AND REGULATORY REVIEW . . . . . . . . . . . . . . . . . . .                                                                                                                                29


APPENDICES

(A) OIG Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                             .......                     30

(B) OIG Reports with Recommendations that Questioned Costs and

     Recom mendations that Funds Be P ut To Better Use . . . . . . . . .                                                                                                   .   .   .   .   .   .   .   31

(C) Report on Receivables, W aivers, and Recoveries . . . . . . . . . . . .                                                                                                .   .   .   .   .   .   .   33

(D) RRB Ma nagement Re ports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                                                   .   .   .   .   .   .   .   34

(E) Cross References to Inspector General Act . . . . . . . . . . . . . . . . .                                                                                            .   .   .   .   .   .   .   41





                   All reports are available via the Internet at http://www.rrb.gov
    Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




EXECUTIVE SUMMARY

Audit Activities
  During the reporting period of October 1, 2006 through March 31, 2007, the Office of
  Audit completed its audit of the Railroad Retirement Board’s Fiscal Year 2006
  Financial Statements as published in the agency’s Annual Performance and
  Accountability Report. Auditors issued an unqualified opinion on the financial
  statem ents reporting that the principal financial statem ents presented fairly, in all
  material respects, the financial position of the Railroad Retirement Board for the fiscal
  years ending September 30, 2006 and 2005, and the financial condition of the
  railroad retirement program as of January 1, 2006. The accompanying report on
  internal control advise d m anagem ent that previou sly cite d m aterial weaknesses in
  information system security, the actuarial projections process and performance
  measurem ent persist. Auditors also cited reportable conditions due to deficiencies in
  internal control ove r fina ncial reporting and com pliance with the P rom pt P aym ent Act.


  Included in the agency’s Performance and Accountability report was the Office of
  Inspector General’s summary of serious management challenges which included
  material weaknesses in internal controls over social insurance and performance
  reporting as well as the agency’s information security program.


  Du ring the period, auditors also reported the results of reviews of the agency’s
  occupational disability program, data transmission controls in its state wage m atch
  program, and information security in one of the component applications of the RRA
  benefit major application system.


Investigative Accomplishments
  The O ffice of Investigations achieved 20 convictions, 9 indictments and informations,
  10 civil judgemen ts, and $1.1 millions in recoveries, restitutions, fines, civil damages,
  and penalties. OI also submitted a number of recommendations to agency program
  managem ent concerning program processes and records managem ent operations.
  (Details of the recommendations are described on pages 14-15)



                                             1
   Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




INTRODUCTION

Railroad Retirement Board
                       The Railroad Retirement Board (RRB) is an independent
                       agency in the executive branch of the Federal government that
                       is headed by a three member Board appointed by the President
                       of th e U nited S tates, with the advice and consent of the Se nate.
                       One mem ber is appointed upon the recommendation of railroad
                       employers, one is appointed upon the recommendation of
                       railroad labor organizations, and the third, who is the Chairman,
                       is appointed to represent the public inte rest.


                       The agency administers comprehensive retirement-survivor
                       and unemployment-sickness insurance benefit programs for the
                       nation's railroad workers and their families under the Railroad
                       Retirement and Railroad Unemployment Insurance Acts. The
                       RRB also has administrative responsibilities under the Social
                       Security Act for certain be nefit paym ents an d Medicare
                       coverage fo r railroad workers.


                       Du ring FY 2006, the RR B p aid approximately $9.3 billion in
                       retirement and survivor benefits to 619,000 beneficiaries, while
                       net unemployment and sickness insurance benefits of $73
                       million were paid to almost 28,000 claimants. The RRB also
                       administers its own Me dicare Pa rt B p rogram through a single
                       carrier, Palmetto GBA. The carrier made payments totaling
                       $900 million to provide medical insurance benefits for 539,000
                       beneficiaries.




                                          2
   Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



Office of Inspector General

                       The Office of Inspector General (OIG) has the responsibility for
                       promoting economy, efficiency and effectiveness in the
                       programs of the Railroad Retirement Board. The office is also
                       charged with the detection, prevention and elimination of fraud,
                       waste and abuse in agency operations. T o accom plish its
                       mission, the OIG conducts audits, management reviews and
                       investigations.


                       The Railroad Retirement Solvency Act of 1983 established the
                       Office of Inspector General at the Railroad Retirement Board by
                       naming the agency as “one of such establishments” identified
                       under Section 2 of the Inspector General Act of 1978. The
                       Inspector General Act Am endm ents of 19 88 added the R RB to
                       the list of ag encies covered by the Inspector General Act.


                       The OIG has 53 employees assigned to three operational
                       components: the immediate Office of th e Inspector G eneral,
                       the Office of Audit, and the Office of Investigations. The office
                       conducts op erations from several locations: the headquarters
                       of the Railroad Retirement Board in Chicago, Illinois, an
                       investigative field office in Philadelphia, Pennsylvania, and a
                       domicile investigative office in Arlington, VA staffed with a
                       senior special agent.




                                          3
  Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




OFFICE OF AUDIT

                      The Office of A udit (OA) c onducts audits and review s to
                      promote economy, efficiency, and effectiveness in the
                      administration of RRB programs, and to detect and prevent
                      waste, fraud, and abuse in such programs. Through the
                      Insp ector General, the office ensures that the Board Mem bers
                      and C ongress are informed of curre nt and potential problem s in
                      the RRB’s programs and operations, and advised of
                      recommended improvements, as well as the status of
                      corrective actions. OA examines programmatic, financial, and
                      administrative aspects of RRB operations.


                      During this semiannual reporting period, OA performed the
                      audit of the FY 2006 financial statements, related internal
                      controls and com pliance with laws and regulations. Auditors
                      also identified three serious management challenges facing the
                      agency: the statement of social insurance, performance
                      measures, and informatio n te chnology security.


                      Auditors also completed three additional reviews: an audit of
                      the DA ISY/CH ICO component application of th e R RA benefit
                      payment system , a review of th e occupational disability
                      program, and an audit of the state wage match data
                      transmission controls.


                      Discussion of the reviews, major findings and
                      recommendations for corrective actions follow.




                                         4
    Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



Fiscal Year 2006 Financial Statements

                        During this semiannual reporting period, the RRB issued the FY
                        2006 Performance and Accountability Report that detailed the
                        goals and accomplishments of the agency. The report included
                        the results of the OIG audit of the agency’s FY 2006 financial
                        statements and a description of the serious management
                        challenges facing the agency that were identified by OIG
                        auditors.


                        The OIG conducted its audit of the FY 2006 financial
                        statem ents, and offered an unqualified opinion of the RR B’s
                        financial statements. The auditors reported material
                        weaknesses in the RRB’s system of internal control in three key
                        areas of agency res ponsibility: informatio n security,
                        performance measurement, and the actuarial projection
                        process. W e also cited two reportable conditions due to
                        identified control deficiencies in the financial reporting process
                        and com pliance with the Prom pt Payment Act. Other m atters
                        involving internal control were commu nicated to agency
                        management in a separate letter with recommendations for
                        corrective action.


MATERIAL WEAKNESSES

                        Information System Security

                        For the sixth consecutive year, auditors identified the agency’s
                        information security program as a source of material weakness
                        in internal control.


                        The RRB has undertaken the job of strengthening information
                        security and has implemented many corrective actions
                        recom mended by the OIG and other technical specialists .
                        During FY 2006, the agency completed corrective a ction to
                        elim inate the previously reported significant deficiency in
                        training. However, previously identified deficiencies in access
                        controls, risk assessments, and periodic testing and evaluation


                                               5
Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                    continue to exist, as well as other observed weaknesses in the
                    agency’s implementation of requirements for risk based policies
                    and procedures, a remedial action process, continuity of
                    operations, and inventory of systems.


                    Performance Measures

                    Du ring FY 2005, the OIG identfied a material weakness in
                    internal control over the preparation and reporting of
                    performance information due to inadequacies in the review and
                    validation of data.


                    In response to the OIG’s finding, the RRB established
                    agencywide standards for collecting, documenting, validating,
                    certifying, reporting and retaining perfo rmance information.
                    Although procedural changes have been formally approved,
                    those changes had not been fully implemented during FY 2006
                    and agency managem ent had not yet operated under these
                    procedures during a period sufficient to evaluate their
                    effectiveness.


                    Actuarial Projection Process

                    The RRB needs to strengthen control over the actuarial
                    projection process that supports the projections and estimates
                    presented in the statement of social insurance, related notes,
                    and as required supplementary information.


                    During FY 2005, the OIG performed a detailed evaluation of
                    controls over the actuarial projection process that disclosed
                    inadequacies in internal control over the projection process and
                    related reports. Du ring FY 2006, managem ent responded to
                    the O IG’s findings by do cumenting the internal control structure
                    that supports the actuarial projection and reporting process,
                    developing an updated chart of controls, and performing a
                    control self-assessment.




                                          6
    Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                        Corrective action taken during FY 2006 represented significant
                        progress but management had not yet addressed all of the
                        significant deficiencies cited by the OIG in its original finding.


REPORTABLE CONDITIONS

                        Controls Over Financial Reporting

                        During FY 2006, the OIG observed that existing procedures
                        and controls needed to be updated to fully ensure that quality of
                        the RRB’s response to its expanding financial reporting
                        responsibilities and the short timeframes that have become
                        inherent to the process. W e also observed that the existing
                        control framework is over-reliant on the OIG’s annual audit of
                        the financial statements to ensure the completeness and
                        accuracy of the perfo rmance and accountability rep ort.


                        Controls Over Compliance with the Prompt Payment
                        Act

                        The OIG’s report again cited the R RB with a reportable
                        condition due to deficiencies in the design and operation of
                        internal control ove r compliance with the P rom pt P aym ent Act.
                        Du ring FY 2006, the RR B m ade substantial progress in
                        correcting previously reported deficiencies. However, most
                        changes were implemented more than six months into the fiscal
                        year and had not been tested by the full range of payment
                        experience. In addition, management had not yet ensured a
                        leve l of uniform processing accuracy that would permit the OIG
                        to conclude that corrective action has been fully effective.




                                           7
     Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



OTHER MATTERS INVOLVING INTERNAL CONTROL

                         In a separate letter, auditors provided agency management
                         with the details of the various individual conditions that let the
                         OIG to assess a reportable condition in controls over financial
                         reporting. The OIG also advised management about other
                         control deficiencies in the processes used to prepare the
                         financial statements and required supplementary information.


SERIOUS MANAGEMENT CHALLENGES

                         As part of th e financial statem ent audit, the O IG is required to
                         identify and report the serious challenges faced by the agency
                         managem ent.


                         In its FY 2006 statement, the OIG observed that the RRB faces
                         the greatest challenges fro m changes in the environm ent in
                         which it op erates a rising from legislative and regulatory
                         mandates as well as advances in technology and the economic
                         environm ent. Th e O IG cited three areas in which the R RB ’s
                         control structure needs to be strengthened in order to respond
                         to such external challenges: financial reporting of social
                         insurance liabilities, performance reporting and information
                         security.


Audit of the DAISY/CHICO Component Application of the RRB Benefit
Payment Major Application System

                         The Federal Information Security Management Act of 2002
                         (FISMA) mandates that the National Institute of Standards
                         develop standards and guidance for the security of information
                         system s including m inim um information security requirem ents.
                         FISMA also establishes program management and evaluation
                         requirements, as well as m inim um information security
                         requirements or controls to be implemented by Federal
                         agencies. These requirements include system and information
                         integrity controls such as input accuracy, completeness and
                         validity, error handling, and output handling retention.


                                            8
     Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                         The U.S. Department of the Treasury (Treasury) issues
                         payments on behalf of the RRB. DAISY/CHICO is a
                         component of the RRA benefit payment major application
                         system that processes payments initiated in other RRB
                         automated systems, and produces the electronic data file that
                         transmits deta iled payment instructio n to Treasury.


                         Re view results indicated that application controls over data
                         inpu t to DAISY/CH ICO and processing by DAISY/CH ICO are
                         operating as designed and meet the requirements established
                         by FISM A, b ut output controls do not and require im provement.
                         Auditors identified weaknesses in output controls over rejected
                         transactions including discrepant or inconsistent output records,
                         and rejected transactions that are not subsequently processed
                         to completion. Auditors also found a class of transactions for
                         which the output records do not create adequate transaction
                         history, and out of date procedures.


                         Recommendation Action:


                         Auditors issued recommendations to address the cited
                         weaknesses through programming changes, implementation of
                         controls, and development of procedures. Management agreed
                         to im plement all corre ctive actions with one proposed alternate
                         solution, and provided a timetable for completion.


Review of the Occupational Disability Program

                         The RRB adm inisters a disability program that provides income
                         protection for railroad workers and their families in the event of
                         either total disability or o ccupational disability. A total disability
                         annuity is based on disability for all employment. An employee
                         is considered disabled if the physical or m ental condition is
                         such that the em ployee is perm anently disa bled fo r work in his
                         or her regular railroad occupation, even through the employee
                         may be able to perform other kinds of work. An occupational
                         disability annuity is payable to employees with a current
                         connection with the rail industry at age 60 if the employee has
                         10 years of service, or at any age if the employee has       at least

                                             9
Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                    20 years of service.


                    Many em ployees who are disabled fo r all em ploym ent, but are
                    othe rwise qualified for an occu pational disability annuity, are
                    initially awarded occupational disability an nuities in order to
                    expedite payment.


                    The Office of Programs is responsible for administering the
                    RRB’s disability program. This office is responsible for
                    developing, analyzing, and evaluating records of physical
                    examinations, medical treatment, employment, vocational
                    experience, etc., in connection with claim s for disability ben efits
                    and prepares decisions on the basis of findings of fact and law.
                    Th is office requests ad ditional eviden ce and orders
                    examinations through a contractor. It also reviews completed
                    reports and adequacy.


                    Auditors evaluated internal controls and determined that
                    controls provide a reasonable assurance that disability
                    applications are processed in compliance with applicable laws
                    and regulations. There are sufficient edits and checks in RRB
                    computer systems to provide assurance that the information on
                    the disability application is correct and, therefore, the
                    occupational disability decisions are based on corrected
                    information. T he RR B p rovides initial training fo r new disability
                    exam iners, as well as, ongoing training fo r existing examiners.
                    An outside contractor conducts quarterly quality reviews of
                    occupational disability decisions and visits the RRB on a
                    monthly basis to answer various disability questions posed by
                    disability examiners. The R RB developed an interactive
                    personal computer program for d isability exam iners to use in
                    the completion of initial disability decisions. This program
                    addresses all of the sequential evaluation questions involved in
                    an initial disability annuity decision.


                    Au ditors determined that internal controls could be improved.
                    Disability examiners with access to the disability computer
                    program could authorize any occupational disability decision.
                    Examiners even had the ability to authorize decisions they


                                       10
     Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                         prepared themselves (a self-a uthorization). Responsible
                         program officials stated that it is the RRB’s practice that
                         occupational decisions be authorized by higher grade disability
                         examiners or supervisory claims examiners. Between October
                         1, 20 05 and August 31, 2006, four RRB disability exam iners
                         authorized five occupational disability decisions that they had
                         prepared.


                         Recommended Action:

                         Auditors issued recommendations to address the cited
                         weaknesses through the establishment of controls and
                         clarification of p olicies for a uthorizing occupational disability
                         decisions. Managem ent agree d to implem ent all corrective
                         actions and provided a timetable for completion.


Audit of the State Wage Match Data Transmission Controls

                         The RR B p rovides unemployment and sickness benefits to
                         qualified railroad workers. It has developed integrity programs
                         to ensure that the RR B p ays benefits in the correct am ount to
                         eligible and entitled beneficiaries and to detect fraud and
                         abuse. One of these programs, referred to as the “State W age
                         Matches,” involves matching data with the states and other
                         matching participants. The RRB has computer matching
                         agreements with 49 states and the District of Columbia. The
                         Office of Programs conducts the majority of these matches by
                         exchanging cassette tapes containing the So cial Security
                         Number (SSNs) of railroad employees who received
                         unemployment and sickness benefits.


                         The RRB sends the IBM cassette tapes to the matching
                         participants to detect instances in which railroad employees
                         received unemployment or sickness benefits for days on which
                         they also worked in non-railroad em ployment, or fo r which state
                         unem ployment benefits were paid. T he RR B o ccasionally
                         matches data with the Sta te of Hawaii and the Co mmonwealth
                         of Puerto Rico by mailing paper documents to them. The
                         matching participants provide the RR B w ith the results of the ir

                                            11
Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                    matches. The results generally include names, SSNs,
                    earnings, state benefits, and employer information. Information
                    which can be linked to an individu al is refe rred to as Personally
                    Identifiable Information


                    Auditors assessed internal controls and procedures and
                    determ ined that, as a result of rec ent improvements, controls
                    for transm itting state wage m atch data provide a reasonable
                    assurance that such data is secure. The RR B can, how ever,
                    take additional actions to encrypt data and im prove security
                    over data sh ippe d by pub lic carrier.


                    Recommended Action:


                    Ma nagement concurre d with the auditors’ findings and will
                    develop an action plan fo r electronic data exch anges with state
                    agencies. T he plan will include both short and long-term goals
                    for implementation. Management will also develop, establish,
                    and publish procedures for s tate wage matches and update
                    state wage match agreements to address electronic transfer of
                    data and shipping methods.




                                       12
    Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



MANAGEMENT DECISIONS AND IMPLEMENTATION

  The Office of Inspector General maintains the open audit follow-up system to
  track the status of corrective actions for all audit recommendations. Office of
  Management and Budget Circular No. A-50 (Revised) and the Inspector
  General Act Amendments of 1988 require the reporting of management
  decisions and corrective actions for all audit recommendations.



  Management Decisions for Recommendations



  Requiring a management decision on October 1, 2006                                      0

  Pending management decisions for new recommendations                                    0

  Management decisions for previous recommendations                                       0

  Recommendations pending a management decision
  on March 31, 2007                                                                       0



  Corrective Actions

  Recommendations requiring action on October 1, 2006                                   136

  Recommendations issued during this period                                              41

  Corrective actions completed during the period                                        - 22

  Final actions pending on March 31, 2007                                               155




                                           13
   Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




OFFICE OF INVESTIGATIONS



                       The Office of In vestigations (OI) foc uses on RR B b enefit
                       program fraud. OI's primary objective is to identify and
                       investigate cases of waste, fraud and abuse in RRB programs
                       and refer th em for p rosecution and monetary recovery action.
                       Through its investigations, OI also seeks to prevent and/or
                       deter program frau d. In order to maximize the effect of its
                       resource s, OI continues to pursu e coo perative investigative
                       activities and coordination with other Inspectors General and
                       law enforc em ent agencies, which include the So cial Security
                       Administration-Office of Inspector General, the Office of
                       Personnel Management-Office of Inspector General, the
                       Federal Bureau of Investigation, the U.S. Secret Service, the
                       Internal Re venue S ervice, and the P ostal Inspection Se rvice .


 Systemic Iss ue Re sults


                       During this semi-annual period the OI recommended that the
                       RRB m odify language on application forms and information
                       documents which will require individu als receivin g disability
                       benefits to report certain self em ploym ent inform ation in more
                       detail. Based on its investigative work related to the RR B’s
                       disability program , the O I has found that som e annuitants are
                       establishing business e nterp rises under the S ubchapter S
                       provisions of the Internal Revenue Code and using this type of
                       business organization as a m eans to hide earnings that would
                       disqualify them for receiving an annuity from the RRB. The OI
                       proposed including certain language concerning corporate
                       involvement or ownership in the reporting requirements and
                       certification section of application forms and annual reminder
                       notices sent to annuitants. The proposed changes included a
                       requirement that annuitants report certain business entity
                       affiliations even if they are not being compensated by the



                                          14
Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                    corporation. This additional information will provide the RRB
                    with a basis to conduct follow-up work to determine if the
                    annuitant is failing to accurately report their earnings to the
                    agency.


                    The RRB agreed with this recommendation and has obtained
                    OMB approval to modify the application forms. The agency has
                    am ended the annual rem inder docum ents that are sent to
                    approximately 50,000 disability annuitants.




                                       15
      Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



INVESTIGATIVE ACCOMPLISHMENTS

                                                                            10/01/06 -
                                                                            03/31/07

 Convictions                                                                               20

 Civil Judg em en ts                                                                       10

 Indictments/Informations                                                                   9

 Investigative Recoveries                                                         $118,420

 Restitutions and Fines                                                           $597,101

 Civil Damages and Penalties                                                      $160,594

 Potential Economic Loss Prevented (PELP)                                         $224,763

 Co mmunity Service H ours                                                                300

 Disciplinary/Administrative Actions                                                        1

 Civil Co mplaints                                                                          8
 Criminal Co mplaints                                                                       1

 Arrests                                                                                    0

 Subpoena Service:
  Inspector General                                                                        60

  Federal Grand Jury                                                                       55

  Trial                                                                                    17


 U.S . Atto rne y Re ferrals                                                               63




                                             16

        Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



INVESTIGATIVE CASELOAD DATA

During this semiannual period, OI opened 175 investigations and closed 147 cases. The
major sources of case referrals are illustrated below.


                                               RRB Headquarters - 25%



           RRB Field Offices - 7%




    OIG Developed - 14%


                                                                       Others - 34%



                   Hotline - 20%




OI's current caseload totals 485 criminal matters, representing approximately $14 million
in fraud against the RRB.




                                                             Disability -251 cases
                                                                 $6,154,900




  Unem ployment & Sickness -
  66 cases
         $1,005,237
                                                                 Spouse/Dependent - 21 cases
                                                                      $684,674

                                                             Representative Payee - 18 cases
                                                                  $199,437
                    Retirement -105 cases           Other - 24 Cases
                         $5,419,883                 $579,144




                                               17
   Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



DISTRIBUTION OF CASES

           The Office of Investigations (OI) conducts its investigations throughout the

           United States in response to complaints or allegations regarding violations
           of Federal law.


           The map below indicates the number of open investigations that OI
           curren tly has in each state; there are no open cases in Alaska or Hawaii.
           One additional investigation is underway in Canada.




                                          18
     Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



REPRESENTATIVE INVESTIGATIONS

Retirement Benefit Investigations

                         RRB retirement fraud typically involves the theft and fraudulent
                         cashing of U.S. Treasury checks, or the illicit conversion of U.S.
                         Treasury electronic fund transfers, by someone other than the
                         authorized RRB annuitant or the payment of benefits to an
                         individu al who is not eligible to receive them. Du ring this
                         reporting period, O I obtained 5 convictions for retirement frau d.
                         The defendants in these cases received sentences totaling 16
                         years probation. T hey were also ordered to pay $174,682 in
                         restitution and $713 in fines. The RRB will also recover
                         $60,435 through its administrative processes based on OI
                         investigative work.


                         Examples of recent retirement cases follow.


     Retired Railroad Worker Ordered to Repay $40,000


                         The OIG opened an investigation of a retired railroad worker
                         based upon a referral from the RRB indicating that annuitant
                         may have returned to work in the railroad industry after being
                         awarded a retirem ent annuity from the RR B. T he OIG’s
                         investigation revealed the annuitant had return ed to work for a
                         covered railroad employer in Missouri after being awarded an
                         annuity based upon his service to another railroad em ployer.
                         Annuitants cannot return to railroad employment without
                         forfeiting their curre nt pension. T he annuitant did not report his
                         return to work as he is required. He fo rmed a corporation to
                         receive his railroad em ployer com pensation and to avoid
                         detection by the RRB. From July 1, 2002 through August 31,
                         2003 the annuitant frau dulently receive d $40,512 in benefits.
                         The retiree was charged with failure to report his railroad
                         em ploym ent to the RR B. He was senten ced to 4 years
                         probation and ordered to make restitution for the full amount of
                         the annuities that he fraudulently received.




                                            19
Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



Couple Convicted of Defrauding RRB and Veterans Administration


                    The OIG initiated an investigation of an individual receiving
                    RRB adm inistered survivor benefits based on a referral from
                    the Department of Veteran Affairs, Office of Inspector General
                    (VA/OIG) indicating possible fraud. The VA/OIG developed
                    information indicating that an annuitant may have defrauded
                    both the VA and RRB to illegally receive a VA pension and
                    RRB spousal benefits.


                    The subsequent investigation revealed that an individual was
                    receiving VA survivor’s benefits as the widow of a veteran even
                    though she had remarried, which would make her ineligible for
                    thes e benefits. T he wido w also applied to the R RB for a
                    widowed spouse ann uity based on the earning s reco rd of a
                    railroad worker and submitted false m arriage certificate in
                    support of her application. When S pecial Agents interviewed
                    the widow, she admitted that she was never married to the
                    railroad worker and she supplied a fa lse certificate in order to
                    fraudulently receive benefits. The widow’s current husband
                    was also interviewed and admitted his involvement. From the
                    period of September 2002 through March 2005 the fraudulent
                    actions by these two individuals resulted in their theft of
                    $70,263 in combined VA and RR B benefits.


                    Bo th individ uals were subsequently convicte d fo r failure to
                    report and for making false statements to the government. The
                    widow was ordered to make restitution of $47,637 to VA and
                    RRB, serve six months home detention, five years probation
                    and pay $25 special assessment fee. The husband was also
                    ordered to serve five months probation, pay a $25 special
                    assessment fee and make restitution of $47,637.




                                       20
     Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



     Da ughter Ordered to R epay Ov er $11,000 in RRB and S SA Be nefits


                         The OIG initiated an investigation of the daughter of an
                         annuitant based upon information received from the Social
                         Security Administration (SSA) indicating that a retirement
                         annuitant was deceased and the RRB was still issuing
                         retirement benefits in the annuitant’s nam e.


                         The OIG’s investigation revealed that the RRB and SSA
                         retirement annuitant had died in July 2004. Neither agency
                         was notified of the annuitant’s death and continued to deposit
                         money via electronic fun ds transfer in the annuitant’s account.
                         It was determined that the annuitant’s daughter continued to
                         withdraw and use these funds for her own personal use
                         resulting in a theft of $11,920 in combined RRB and SSA
                         benefits. W hen interviewed by Special Agents she admitted to
                         spending the funds issued into the bank account after her
                         father’s death and that she knew she was not entitled to these
                         funds. She was convicted of theft of government funds and
                         ordered to make restitution of $11,920 to the U.S. Government
                         and fined $489.


Disability Investigations

                         The OIG also conducts fraud investigations relating to the
                         RRB's disability program, which typically involves larger
                         financial amounts and more sophisticated schemes. Railroad
                         workers who are awarded a disability annuity by the R RB are
                         subject to work restrictions and earnings income.


                         During this reporting period, OI obtained 5 convictions and 3
                         civil judgments in cases involving disability fraud. The
                         defendants in these cases received sentences totaling three
                         months im prisonm ent, and 10.5 years pro bation. T hey were
                         also ordered to pay $354,163 in restitution, $86,114 in civil
                         damages, and $25 fines. The RRB will recover an additional
                         $32,484 as a result of disability fraud investigations concluded
                         during this reporting period. Descriptions of several cases
                         follow.

                                            21
Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



Re al Estate Agent Fraudulently Receive d $130,00 0 in Disability Be nefits


                    The RRB’s Debt Recovery Division referred a matter regarding
                    a disability an nuitant based on a computer wage m atch with
                    Social Security Administration records which showed that the
                    annuitant receive d self-e mployment wages that he fa iled to
                    report to the RRB as required. The OIG determined that the
                    annuitant was employed as a real estate agent for various
                    companies. From 1995 through 2003 the annuitant worked for
                    three different real estate companies and failed to report his
                    work and earnings to the RRB. As a result the annuitant
                    fraudulently received $130,526 in benefits. He was convicted
                    for failure to report his employment and earnings. He was
                    sentenced to three months in jail, six months house arrest, one
                    year pro bation and ordered to m ake restitution of $ 130,526 to
                    the RRB.


Disability Annuitant Convicted of Failing to Report Work and Earnings


                    The OIG received allegations that a disability annuitant owned
                    and operated a corporation. The annuitant had not reported
                    any em ployment to the R RB as required. T he OIG’s
                    investigation revealed that the annuitant owned and operated
                    two popcorn stores in Louisville, Kentucky. W hen the RRB
                    issued a form asking the annuitant to report any employment
                    and earnings, the annuitant lied on the form and stated that he
                    was not working and had no incom e other than his annuity.
                    Ho wever, when OIG Sp ecial Agents interviewed the annuitant,
                    he a dm itted that he wife op erated the two stores with his wife
                    and that he had intentionally lied to the RR B a bout his
                    employment. His failure to report his work and income resulted
                    in the annuitant being paid $75,000 in disability be nefits to
                    which he was not entitled.


                    The United States Attorney filed a criminal information charging
                    the annuitant with submitting a false statement to the RRB. He
                    was convicte d fo r violating this statute and was ordered to
                    serve 12 months probation and to pay a special assessment of
                    $25. In a parallel civil action the annuitant entered into a


                                       22
Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                    Settlement Agreement to repay the RRB $75,000 in benefits he
                    had fraudulently received.


Annuitant Ordered To Repay $43,000


                    The RRB referred th is m atter involving possible fraud by a
                    disability annuitant to the OIG based upon the results of
                    information received from Social Security Administration
                    records. T he reco rds indicated that the annuitant may have
                    worked for a private employer and failed to report his earnings
                    to the RRB as required.


                    The subsequent investigation by the OIG revealed that the
                    annuitant worked for a County Board of Comm issioners and an
                    auto parts retailer while collecting his disability annuity. The
                    annuitant was earning the exceeded amount allowed under the
                    Railroad Retirement Act and he failed to report his employment
                    and income. Between 2002 and 2004 his failure to report his
                    em ployment and income resulted in his theft o f $4 3,009 in
                    government funds. During an interview with Special Agents he
                    provided a sworn statement in which he admitted that he failed
                    to report his employment to the RRB.


                    A civil complaint was filed by the U.S. States Attorney for
                    violation of the False Claims Act. The court then rendered
                    judgment against the annuitant and he was ordered to pay the
                    principal amount of $4 3,010, plus interest at the legal rate
                    prescribed by law.




                                       23
    Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



Unemployment and Sickness Insurance Investigations

                        Un em ployment Insurance (U I) and S ickness Insurance (S I)
                        benefit fraud involves individuals claiming and receiving UI or
                        SI benefits while working and receiving wages from an
                        em ployer, in violation of F ederal law. OI receive s the m ajority
                        of th ese cases for followup investigation fro m the RR B’s
                        Disability, Sickness and Unem ployment Benefits Division as a
                        result of information developed from state wage matching
                        programs. T hese programs m atch R RB annuitants with
                        individuals who also had wages reported to the state during the
                        same period of time.


                        During this reporting period, OI obtained 10 convictions and 7
                        civil judgments for UI and SI fraud. Defendants in these cases
                        received, in the aggregate, 2 7 yea rs pro bation, and were
                        directed to perform 300 hours of community service. They
                        were ordered to pay $65,556 in restitution, $74,480 in civil
                        damages a nd penalties, and $2,562 in fines. The RRB will also
                        be able to initiate administrative action to recover an additional
                        $25,501 as a result of OI investigations.


                        Examples of cases completed this reporting period follow.


    UI Claimant ordered to Repay $10,000


                        The OIG began this investigation of an unemployment
                        insurance claimant based upon a wage match with the State of
                        California, which indicated that the claimant had been
                        employed while at the same time claiming and collecting RRB
                        administered unemployment insurance benefits.


                        OI determined that the claimant had two separate periods
                        during which she claimed unemployment benefits the same
                        days she was working and being paid by an employer. During
                        the period of September 2002 through October 2003 she
                        subm itted a total of 23 false claim s when applying for b enefits
                        and intentionally did not report her em ployment to the R RB .
                        He r actions resulted in the theft of $10,995 in benefits.


                                           24
Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                    The annuitant was charged with failure to report info rmation to
                    the R RB . She was senten ced to a term of three years
                    probation, 150 hours of community service, ordered to make
                    restitution to the RRB in the amount of $10,995 and a special
                    assessment of $25.


Florist Convicte d of Fraudulently Claimin g S ickn ess B enefits


                    The O IG initiated an investigation of a RRB sickness insurance

                    claimant based upon a referral from the RRB. The RRB had

                    conducted a com puter wage m atch with the S tate of C alifornia

                    that identified claimants who may have collected RRB

                    administered sickness insurance benefits on th e sam e days

                    they received wages from a private e mployer.



                    The inve stigation showed that the claim ant frau dulently

                    collected sickness benefits on many of the same days she

                    worked as a florist in Rancho Cucamonga, California. From

                    Septem ber 2003 throug h April 2004 the claimant failed to n otify

                    the RR B o f he r em ployment and submitted 15 false claim s to

                    the government to continue the scheme, resulting in her theft of

                    $6,894 in government funds. During an interview with Special

                    Agents, the claimant provided a written statement admitting her

                    culpability in this matter and agreed to make full restitution.



                    She was convicted for theft of government funds. She was

                    ordered to make restitution of $ 6,894 to the R RB and serve six

                    months probation.



UI Claimant Sentenced to 2 years in Prison


                    The RRB’s Sickness and Unemployment Benefits Division
                    discovered this case as the result of a wage match with the
                    State of California. This match identified railroad employees
                    who collected UI benefits from the RRB and also had wages
                    reported to the Sta te of California during the same period. T his
                    match indicated that the UI claimant may have collected RRB
                    administered U I benefits on many of the same days he was
                    em ployed by a priva te em ployer.


                                       25
Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                    The OIG discovered that the claimant fraudulently collected UI
                    ben efits on ma ny of the sam e da ys he w as emp loyed at a Jiffy
                    Lube Service Center located in Los Alamitos, California. From
                    Ma rch through N ovem ber 2004 the claimant frau dulently
                    claimed R RB adm inistered UI benefits, submitting 19 false
                    claims and three fa lse statem ents to the RR B, re sulting in his
                    theft of $10,054 in benefits. W hen interviewed by Special
                    Agents he admitted to his fraudulent acts.


                    He was convicted and sentenced to two years of imprisonment
                    and 300 hours of comm unity service. During community service
                    he is re quired to pay res titution of $500 to th e R RB a nd pay
                    $2,550 to the Department of Justice.




                                       26
     Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



RRB Employee Dismissed for Theft of Official Records

                         The OI also investigates cases of employees misconduct and
                         the following cas e resulted in the R RB taking adm inistrative
                         action against an employee during this reporting period.


                         The OIG initiated an investigation based upon a referral from
                         U.S. Department of Homeland Security, Immigration and
                         Customs Enforcement (ICE) alleging that the employee was
                         soliciting a minor child to have a sexual relationship via the
                         Internet. Analysis of the information and the computer m edia
                         obtained by Special Agents showed that the employee utilized
                         both his hom e com puter and his agency com puter to
                         communicate with this minor.


                         OIG and ICE Special Agents executed search warrants at the
                         employee’s RRB work area and residence. During the search
                         of the residence a large volume of RR B official docum ents we re
                         located in the basement of the residence. Agents also found
                         shredded RRB documents during the search. The employee
                         admitted removing these documents from the RRB without
                         authorization.


                         Based on his theft of official RRB documents, the employee
                         was terminated from governm ent service in D ecem ber 2006.
                         The employee has been charged with manufacture and
                         distribution of child pornography and is currently awaiting
                         sentencing.




                                            27
Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



                           HOTLINE CALLS

        The Office of Insp ector Ge neral established its Hotline to receive
        complaints concerning suspected fraud, waste and abuse in RRB programs
        and operations. The Hotline provides an open line of communication for
        individu als to report suspected crim inal activity, conflict of interest,
        mism anagem ent, and waste of RRB fun ds.


                                                                                10/01/06 -
                                                                                03/31/07


        Total Contacts: (Telephone Calls and                                          464
        Letters)


        Re ferred to:


        RRB -OIG, Office of Investigations                                             50


        RR B-O IG, Office of A udit                                                     0


        RRB Bureaus/Offices                                                           159


        Other Federal Agencies                                                          8


        Local or State Agency                                                           0


        RRB Medicare Carrier/Durable Medical
        Equipment                                                                       4
        Re gion al Carriers


        Other (misdirected calls, follow-up calls to

        agents,
                                                                      201
        etc.)



        Calls for which there was insufficient
        information to substantiate an allegation or                                   36
        to make a referral


                                         28
  Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




LEGISLATIVE &
REGULATORY REVIEW

                         The Inspector General Act requires the Inspector G eneral to
                         review existing and proposed legislation and regulations
                         relating to the programs and operations of the agency, and
                         to m ake recommendations in the semiann ual repo rt
                         concerning the impact on the economy and efficiency of the
                         agency’s administration of its programs and on the
                         prevention of fraud and abuse.


                         The OIG has no comments for this reporting period.




                                         29
   Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




APPENDIX A


REPORTS ISSUED

        #	      Fiscal Yea r 2006 Financial Statem ent Au dit - Letter to M anagem ent,
                February 9, 2007

        #	      Au dit of the DA ISY/CH ICO Co mponent A pplication of th e R RA Be nefit
                Payment Major Application System, March 9, 2007

        #       Review of the Occupational Disability Program, March 21, 2007

        #	      Audit of the State W age Match Data Transmission Controls, March 28,
                2007




                                          30
       Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




APPENDIX B

        INSPECTOR GENERAL ISSUED REPORTS WITH

                  QUESTIONED COSTS


                                                            Questioned         Unsupported
                                             Number           Costs               Costs

A. For which no management decision had
been made by April 1, 2006                      0                0                   0


B. Which were issued from April 1 through
September 30, 2006                              0                0                   0


Subtotals (A + B)                               0                0                   0


C. For which a management decision was
made from April 1 through September 30,
2006                                            0                0                   0


(i) dollar of disallowed costs                                   0                   0


(ii) dollar value of costs not disallowed                        0                   0


D. For which no management decision had
been made by September 30, 2006                 0                0                   0


Reports for which no management decision
was made within six months of issuance          0                0                   0




                                              31
       Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




       INSPECTOR GENERAL ISSUED REPORTS WITH
       RECOMMENDATIONS THAT FUNDS BE PUT TO
                    BETTER USE


                                                          Number             Dollar Value


A. For which no management decision had been
made by October 1, 2006                                     0                     0


B. Which were issued from October 1, 2006 through
March 31, 2007                                              0                     0


Subtotals (A + B)                                           0                     0


C. For which a management decision was made

from October 1, 2006 through March 31, 2007                 0



(i) dollar value of recommendations that were agreed

to by management                                                                  0



(ii) dollar value of recommendations that were not
agreed to by management                                                           0


D. For which no management decision had been
made September 30, 2006                                     0


Reports for which no management decision was
made within six months of issuance                          0




                                                     32
   Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




APPENDIX C
REPORT ON RECEIVABLES, WAIVERS, AND
RECOVERIES
   The FY1999 appropriations language for this office requires the reporting of
   additional information concerning actual collections, offsets and funds put to better
   use achieve d as a result of Inspector General activities.

   Office of Audit
              Funds to be put      Funds Agreed        Receivables                   Recoveries
   Report       to better use      by Management       Established       Waivers        to date

   99-03        $         50,850 $            50,850    $       50,580 $ 50,490 $            360
   99-14                  83,000              83,000*           34,423                    30,584
   99-16             48,000,000           48,000,000                                    8,000,000
   99-17             11,000,000            11,000,000                                   1,604,545**
   00-16                 235,000             235,000                                     253,846***
   04-06                 821,000             821,000          629,688                    585,282
   04-10                 400,000             400,000
   05-03               1,800,000            1,800,000
   05-06                  10,000               10,000
   05-07               1,070,000            1,070,000
   05-10               2,600,000            2,600,000
   06-04                 257,000              257,000
   06-06                 200,000              200,000
   * This figure includes monies owed to the agency and overpayments which must be refunded.
   ** This figure represents case corrections that resulted in receivables, annuitant payments,
      employer tax credits and liabilities.
   ***This figure represents returned payments credited to debtor accounts.

   Office of Investigations

   Recoveries realized by the RRB resulting from court-ordered restitution and civil damages:

    FY 1999                                                             $      855,655
    FY 2000                                                                 1, 038,134
    FY 2001                                                                    990,356
    FY 2002                                                                    785,843
    FY 2003                                                                    947,876
    FY 2004                                                                    646,273
    FY 2005                                                                    844,183
    FY 2006                                                                 1,281,680
    10/1/06 - 3/31/07                                                          959,054



                                                33
        Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




APPENDIX D
RRB MANAGEMENT REPORTS
(Th e informatio n con tain ed in th is section has been p rov ided b y R RB managem ent.)



               MANAGEMENT REPORT ON FINAL ACTION

               ON AUDITS WITH DISALLOWED COSTS FOR

             THE SIX MONTH PERIOD ENDING MARCH 31, 2007




                                                               Number                     Disallowed Costs

 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                          0                             0

 B. Audit reports on which management decisions
 were made during the period.                                      1                          $2,835*

 C. Total audit reports pending final action during
 the period.                                                       1                           $2,835

 D. Audit reports on which final action was taken
 during the period.                                                0                             0

 1. Recoveries

    (a) Collections
    (b) Property
    (c) Other

 2. Write-offs                                                     0                             0


 3. Total of 1 and 2                                               0                             0


 E. Audit reports needing final action at the end of
 the period.                                                       1                          $ 2,835



* Identified in Audit Report 05-09, “Review of Internal Control Over Budget Execution.”




                                                       34
        Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




  MANAGEMENT REPORT ON FINAL ACTION ON AUDITS WITH
 RECOMMENDATIONS TO PUT FUNDS TO BETTER USE FOR THE
       SIX MONTH PERIOD ENDING MARCH 31, 2007


                                                                                        Funds to be put
                                                             Number                       to better use
 A. Audit reports, with management decisions, on
 which final action had not been taken at the
 beginning of the period.                                       7                        $ 3,739,100 *

 B. Audit reports on which management decisions
 were made during the period.                                   0                                      0

 C. Total audit reports pending final action during

 the period.                                                    7                       $       3,739,100 


 D. Audit reports on which final action was taken

 during the period.                                             0                                        0


 1. Value of recommendations implemented.                       1                                 257,000 


 2. Value of recommendations that management

 concluded should not or could not be

 implemented.                                                   0                                       0


 3. Total of 1 and 2.                                           1                           $    257,000 


 E. Audit reports needing final action at the end of

 the period.                                                    6                           $   3,482,100 



*	   Compromised of the following amounts: $400,000 from Audit Report 04-10, “Review of Spouse Annuity
     Work Deductions at the Railroad Retirement Board,” $1,800,00 from Audit Report 05-03, “Evaluation of
     the RRB’s Processing of Disability Earnings Cases,” $10,000 from Audit Report 05-06, “Review of
     Compliance with the Prompt Payment Act,” $1,070,000 from Audit Report 05-07, “Evaluation of Survivor
     Annuity Work Deductions at the Railroad Retirement Board,” $257,000 from Audit Report 06-04, “Annuity
     Deductions for Retired Employees Working After Full Retirement Age,” $2,100 from Audit Report 06-05,
     “Review of Compliance with Provisions of the Railroad Retirement Act Governing the Initial Award of
     Benefits,” and $200,000 from Audit Report 06-06, “Review of the Termination and Suspension of Benefits
     Paid Under the Railroad Retirement Act.”




                                                        35
         Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                 AS OF MARCH 31, 2007

                                                          Funds to
                                        Disallowed        be put to           Reason action has not
         Report                Date       Costs           better use             been completed

Review of Quality             1/22/97     None              None	      The remaining recommendation will be
Assurance Activities                                                   addressed in conjunction with efforts to
(97-06)                                                                improve calculation and reporting of
                                                                       performance measures.

Review of Non-Priority        3/13/97     None              None       The Office of Programs plans to review
Correspondence                                                         and reevaluate its approach to tracking
Handling (97-09)                                                       correspondence at the end of FY07.


Information Systems           6/28/00     None              None       The agency hopes to close out the only
Security (INFOSEC)                                                     remaining open recommendation early
Assessment Report                                                      in FY07.

Fiscal Year 2000              2/23/01     None              None	      The Bureau of Information Services is in
Financial Statement Audit                                              the process of developing procedures
(01-03)                                                                related to recently purchased help-desk
                                                                       services and tools.

Site Security Assessment      7/20/01     None              None	      The Bureau of Information Services will
for the Office of Inspector                                            close the last open recommendation by
General (Blackbird #1)                                                 completing migration of all applications
                                                                       to new servers in FY07.

Security Controls             8/17/01     None              None	      The Bureau of Information Services
Analysis for the Office of                                             closed 35 recommendations and has
Inspector General                                                      submitted documentation to the OIG on
(Blackbird #2)                                                         the last 3 open ones.

Review of Information         2/5/02      None              None	      The Bureau of Information Services has
Security at the Railroad                                               closed 20 recommendations and is
Retirement Board                                                       working on the remaining 8.
(02-04)




                                                     36
         Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                 AS OF MARCH 31, 2007

                                                     Funds to
                                       Disallowed    be put to            Reason action has not
        Report               Date        Costs       better use              been completed

Evaluation of the Self-
    12/27/02     None            None	    The Bureau of Information Services has
Assessment Process
                                               used automated software tools for some
for Information System
                                           assessments, and will obtain contractor
Security
                                                         support for more comprehensive
 (03-02)
                                                         reviews of other systems in FY07.

Evaluation of the RRB
 12/27/02          None            None	    The Bureau of Fiscal Operations closed
E-government Initiative:
                                         nine recommendations and is working
RUIA Contribution
                                                with the Department of Treasury to close
Internet Reporting and
                                           the remaining two.
Payment (03-03)


Inspection of Unverified
   3/20/03      None            None     The Office of Programs has reviewed all
Records in the RRB’s
                                             20,000 records, with corrective actions
Employment Data
                                                  and systems changes targeted for
Maintenance System
                                               completion by the end FY07.
(03-06)


Review of the RRB’s
         9/8/03      None            None     The Bureau of Information Services will
PIN/Password System
                                              establish procedures in conjunction with
for On-Line
                                                      action taken to close 03-10.
Authentication

(03-09)


Review of the Systems
       9/8/03      None            None     The Bureau of Information Services is
Development Life
                                                 using new project management software
Cycle for End-User
                                               which should help close the five
Computing
                                                        remaining recommendations in FY07.
(03-10)


RRB’s Railroad
             5/12/04      None            None     The Office of Programs plans to finish a
Retirement Act
                                                   review of sampled items and close the
Document Imaging
                                                 last recommendation early in FY07.
Process: Reliability of

Images from Scanned

Paper Documents

 (04-02)





                                                    37
        Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007




   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                 AS OF MARCH 31, 2007


                                                       Funds to
                                     Disallowed        be put to           Reason action has not
        Report             Date        Costs           better use            been completed

Review of Accounts        7/29/04      None              None	      Use of an automated payment system
Receivable Established                                              by remaining employers in FY07
Under the Railroad                                                  should close the last two
Unemployment                                                        recommendations.
Insurance Act (04-06)

Review of Mainframe        9/7/04      None              None	      The Bureau of Information Services
Access Controls at the                                              and Fiscal Operations hope to
Application Level -                                                 complete action on the remaining two
Federal Financial                                                   recommendations by the end of FY07.
System (04-07)

Review of Mainframe        9/7/04      None              None	      The Bureau of Information Services
Access Controls at the                                              hopes to close the final
Application Level - RRB                                             recommendation by the end of FY07.
Developed Applications
Controlled by ACF2 and
IDMS (04-08)

Review of Mainframe        9/9/04      None              None	      The agency plans to complete action
Access Controls at the                                              on the remaining two recommendations
Application Level -                                                 by the end of FY07.
Program Accounts
Receivable System
(04-09)

Review of Spouse          9/30/04      None            $400,000	    Adjustments on all identified cases
Annuity Work                                                        should be completed in FY07.
Deductions at the RRB
(04-10)

FY2004 Evaluation of      9/30/04      None              None	      The Bureau of Information Services
Information Security at                                             has closed eight of nine
the RRB (04-11)                                                     recommendations, and plans to close
                                                                    the last one in FY07.

FY2004 Financial          10/25/04     None              None	      Agency units have closed 12 of the 14
Statement Audit, Letter                                             recommendations, and hope to
to Management                                                       complete action on the remaining ones
 (05-01)                                                            during FY07.

Review of RRB             12/6/04      None              None	      Discussions with Internal Revenue
Compliance with Federal                                             Service and potential contractors have
Laws & Regulations on                                               indicated that sourcing of information
Competitive Sourcing                                                technology may be prohibited by legal
(05-02)                                                             and cost concerns.



                                                  38
        Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                 AS OF MARCH 31, 2007

                                                        Funds to
                                      Disallowed        be put to           Reason action has not
         Report               Date      Costs           better use            been completed

Evaluation of the RRB’s
    2/11/05     None            $1,800,000	 Programs staff is in the process of
Processing of Disability
                                           reviewing/adjusting cases from 2001
Cases
                                                              and plans to complete all action in
(05-03)
                                                            FY08.

Review of Internal Control
 5/5/05      None              None	      The Chief Actuary has submitted a
Over the Actuarial
                                                  workforce development plan and will
Projection Process (05-
                                             take further actions as needed.
04)

Review of Customer          5/17/05     None              None	      The agency adopted an administrative
Service Performance                                                  circular that contains procedures for
Measures for Timeliness                                              improved performance reporting, with
of Initial Railroad                                                  implementation to be validated as part
Retirement Annuity                                                   of the financial statement audit.
Payments (05-05)

Review of LAN, LAN       6/7/05         None              None	      This contractor-prepared confidential
Security Scan and Web-                                               report contained 45 recommendations.
based Applications (DSD)                                             To date, Information Services has
                                                                     addressed over half of them.

Review of Compliance    6/15/05         None             $10,000	    The Bureau of Fiscal Operations
with the Prompt Payment                                              closed six recommendations, and the
Act (05-06)                                                          other three should be closed in FY07.

Evaluation of Survivor  7/14/05         None            $1,070,000	 The Office of Programs is developing
Annuity Work Deductions                                             procedures for rejected cases to close
at the RRB (05-07)                                                  the last open recommendation in
                                                                    FY07.

Review of Access            7/18/05     None              None	      The Bureau of Information Services
Controls in the End-User                                             has addressed 7 of 15
Computing General                                                    recommendations in this confidential
Support System (05-08)                                               report, with the rest to be closed in
                                                                     FY07.

Review of Internal Control 9/6/05       $2,835            None	      The Bureau of Fiscal Operations has
Over Budget Execution                                                developed procedures that should
(05-09)                                                              close the remaining two
                                                                     recommendations.

Review of Employee       9/19/05        None              None	      The Office of Programs plans to
Work Deductions Prior to                                             address the remaining open
Full Retirement Age (05-                                             recommendation during the first half of
10)                                                                  FY08.



                                                   39
        Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007


   MANAGEMENT STATEMENT ON RESOLVED AUDIT REPORTS
   OVER TWELVE MONTHS OLD WITH FINAL ACTION PENDING
                 AS OF MARCH 31, 2007

                                                        Funds to
                                      Disallowed        be put to           Reason action has not
         Report               Date      Costs           better use            been completed

Fiscal Year 2005            9/28/05     None              None	      Information Services is developing a
Evaluation of Information                                            project plan, along with revised reports
Security at the RRB (05-                                             and procedures, to address the three
11)                                                                  open recommendations.


Fiscal Year 2005          11/15/05      None              None	      The agency adopted an administrative
Financial Statement Audit                                            circular that contains procedures for
(06-01)                                                              circular that contains procedures for
                                                                     improved performance reporting, with
                                                                     implementation to be validated as part
                                                                     of the financial statement audit.

Accuracy and Reliability    1/30/06     None              None	      The Office of Programs has closed half
of GPRA Performance                                                  of the six recommendations, with the
Measures: Timeliness of                                              remainder to be addressed in FY07.
Non-Disability Survivor
Annuity Payments (06-
03)




                                                   40
       Semiannual Report to the Congress for the period October 1, 2006 - March 31, 2007



APPENDIX E
REPORTING REQUIREMENTS

Inspec tor Gen eral Requ iremen ts                                                                Page


    Section 4(a)(2) - Review of Legislation and Regulations                                          29
    Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies                                  5
    Section 5(a)(2) - Recomm endations W ith Respect to Significant Problems,
      Abuses, and Deficiencies                                                                        5
    Section 5(a)(3) - Prior Significant Recomm endations Not Yet Implemented                          5
    Section 5(a)(4) - Matters Referred to Prosecutive Authorities                                    16
    Section 5(a)(5) - Instances W here Information W as Refused                                   None
    Section 5 (a)(6 ) - List of Aud it Rep orts                                                      30
    Section 5(a)(7) - Sum m ary of Each Significant Report                                            5
    Section 5 (a)(8 ) - Statistical T ables on Ma nag em ent D ecisions on Q ues tioned Costs        31
    Section 5(a)(9) - Statistical Tables on Management Decisions on
      Recom mendations That Funds Be Put to Better Use                                               32
    Section 5(a)(10) - Summ ary of Each Audit Report Over 6 Months Old
      For W hich No Management Decision Has Been Made                                             None
    Section 5(a)(11) - Description and Explanation for Any Significant
      Revised Managem ent Decision                                                                None
    Section 5(a)(12) - Information on Any Significant Management Decisions
      W ith W hich the Inspector General Disagrees                                                None


M anag em ent Re quirem ents


    Section 5 (b)(1 ) - Co m m ents Deem ed A ppro priate                             Transmittal Letter
    Section 5 (b)(2 ) - Statistical T able on F inal Ac tion on Disa llowed Costs                    34
    Section 5(b)(3) - Statistical Table on Final Action To Put Funds to Better Use                   35
    Section 5(b)(4) - Statement on Audit Reports W ith Final Action Pending                          36




                                                    41
               REPORT


FRAUD, WASTE AND ABUSE





Call the OIG Hotline:
         1-800-772-4258

E-mail:    Hotline@oig.rrb.gov

The OIG cannot ensure confidentiality to
persons who provide information via e-mail.
Do not send information by e-mail that you
do not want a third party to read.

Write: RRB-OIG Hotline Officer
       844 North Rush Street
       Chicago, IL 60611-2092
